         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Cooperative Research and
Development Agreements at National
Nuclear Security Administration
Laboratories




OAS-M-13-02                                 March 2013
                                 Department of Energy
                                    Washington, DC 20585
                                         March 15, 2013

MEMO
MEMORANDUM FOR THE ACTING ADMINISTRATOR, NATIONAL NUCLEAR
               SECURITY ADMINISTRATION



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                           for Audits and Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Audit Report on "Cooperative Research and
                         Development Agreements at National Nuclear Security Administration
                         Laboratories"

BACKGROUND

The dissemination of technology developed by the Department of Energy's national laboratories
to the general science community and the public, is one of the Department's top priorities. In
1989, the National Competitiveness Technology Transfer Act established technology transfer as
a Federal mission and authorized government-owned, contractor-operated laboratories to use
Cooperative Research and Development Agreements (CRADAs) to facilitate the development
and transfer of technology to the private sector. In Fiscal Year (FY) 2011, the National Nuclear
Security Administration (NNSA) reported it had 272 active CRADAs.

NNSA site offices located at each laboratory are responsible for ensuring that laboratories obtain
final reports documenting the results of research and any new inventions or technology, and
forward copies of the reports to the Department's Office of Scientific and Technical Information
(OSTI). Ultimately, OSTI is responsible for preserving the scientific and technical information
and making this information readily available to the scientific community and to the public. In
our previous audit report, Cooperative Research and Development Agreements at the
Department of Energy's Office of Science Laboratories (IG-0826, September 2009), we found
that Office of Science laboratories had not always received final reports from researchers nor
transmitted the reports to OSTI. Management committed to address those issues.

We initiated this audit to determine whether the NNSA was effectively managing the use of
CRADAs at its laboratories.

CONCLUSIONS AND OBSERVATIONS
We found that NNSA laboratories were managing the use of selected CRADA activities that we
tested in an effective manner. For example, we found that the three laboratories we visited
generally met the requirements for CRADAs. Furthermore, our review found that the Joint Work
Statements and CRADA Statements of Work clearly described tasks to be performed, the division
of work, and the potential benefits to the Department and the U.S. economy. The work generally
appeared to be collaborative in nature between the laboratories and the partners. However, we
found that controls could be improved in the area of obtaining and disseminating CRADA results.
Specifically, we found that NNSA laboratories had not always:

     • Obtained final reports from researchers for completed and terminated projects, and,

     • Forwarded the obtained reports to OSTI for dissemination.

                                 Meeting Reporting Requirements

The Department's CRADA Manual requires the laboratories and industry partners to produce a
final report as a deliverable for each completed or terminated CRADA project. The laboratories
are also required to send a copy of all final reports to OSTI for dissemination to the scientific
community and to the general public. Dissemination of scientific and technical information is
statutorily required under several public laws, including the Atomic Energy Act of 1954 and the
Department of Energy Organization Act of 1977. The Department's CRADA Manual states that
the contractor must ensure that deliverables, such as the final reports, are provided to OSTI to
ensure that the results of CRADAs are made known to other Department contractors for
Departmental program needs.

Of the 211 CRADAs completed or terminated from FYs 2008 to 2012 at the laboratories we
visited, we selected 40 for review. The following table illustrates the results of our review of the
laboratories' compliance with reporting requirements.


                 Table 1: Sample of Completed or Terminated CRADAs
                               Fiscal Years 2008 - 2012
                                                     Final Reports     Final Reports
                                  OIG Sample           Received        Sent to OSTI
          Los Alamos                  14                    0                0
          Sandia                      14                    3                0
          Livermore                   12                   12                7
                       Totals          40                 15                 7


                                   Controls over Final Reports

Reporting issues occurred because, the NNSA site offices had not consistently overseen CRADA
activities at the three national laboratories we reviewed. In particular, the site offices had not
always ensured that the laboratories had implemented policies and procedures related to
obtaining final reports and transmitting final reports to OSTI and that such policies and
procedures were effective.

Los Alamos Site Office did not ensure that the Los Alamos National Laboratory (Los Alamos)
had policies and procedures to obtain final reports from researchers and transmit the reports to

                                                 2
OSTI. Los Alamos technology transfer personnel stated that, although a final report was
requested from researchers as part of the closeout procedures, they were not required to obtain
the report prior to closing out the CRADA. Los Alamos personnel stated that the laboratory had
no procedure for sending final reports to OSTI when a CRADA was completed or terminated.
We were told that, while this may have been done in the distant past, it had not been done in
recent years. As a result, none of the 52 CRADAs completed or terminated during FYs 2008 to
2012 had final reports archived at OSTI for dissemination.

Similarly, prior to 2010, the Sandia Site Office was unaware that Sandia National Laboratory
(Sandia) was not always obtaining final reports and did not have a policy to transmit reports to
OSTI. Sandia identified that it was not receiving final reports when a 2010 self-assessment of its
technology transfer programs found that waiting for these reports was delaying its closeout
process. To improve the timeliness of its closeouts, in August 2010, a Sandia management
official decided to waive the requirement for a final report for those projects awaiting closeout at
that time, and therefore, no final reports were sent to OSTI. The Sandia Site Office concurred
with this action, even though obtaining final reports was required under Department's CRADA
Manual. We found that the requirement for a final report had been dropped in 11 of the 14
completed CRADAs we reviewed. In two cases, Sandia returned funds provided by the partner,
$28,763 in one case, and $45,367 in the other, even though a final report had not been produced
from the work. Had this funding been retained, the researchers may have prepared and provided
the final report. Sandia officials told us that these two projects had been terminated before the
research was completed; however, the Department's Manual requires that final reports be
produced for all completed or terminated CRADAs.

Sandia officials told us that since August 2010, they had required final reports to be received and
transmitted to OSTI for every closed CRADA. We were provided with OSTI transmittal notices
indicating that Sandia had been sending recently received reports to OSTI. However, while
Sandia did maintain department-level procedures to disseminate reports to OSTI, we noted that
the requirement to submit final reports to OSTI had not been codified as part of the official
Sandia corporate procedures for CRADAs. Additionally, although we found that Sandia had
received three final reports from previously closed CRADAs, these reports had not been
transmitted to OSTI. In fact, Sandia management explained that prior to the actions taken in
August 2010, Sandia did not submit any final reports to OSTI. As a result, none of the 71
CRADAs completed in FY 2008 and FY 2009 had final reports archived at OSTI, even if Sandia
had received the final report. Sandia officials explained that it may not be feasible to obtain final
reports for some completed or terminated CRADAs because of the lapse of time, missing
researchers or the unavailability of funds. Sandia's concerns about the feasibility of obtaining
final reports for CRADAs due to the lapse of time is valid and highlight the importance of
obtaining timely final reports.

Finally, the Livermore Site Office was active in overseeing Lawrence Livermore National
Laboratory (Livermore), which may explain the performance of the laboratory in obtaining final
reports from researchers. We were told that the Livermore Site Office received monthly and
quarterly status reports on all CRADA projects plus the final reports published by Livermore.
However, we were told that the Livermore Site Office only performs random checks of
transmissions to OSTI, an area where we found Livermore still had problems. While Livermore
Site Office personnel stated that they were aware of past problems in this area and had increased
the frequency of checks, they stated that there was a backlog of information to transmit to OSTI.
                                                  3
Our review of the reports that had not been sent to OSTI determined that four of the five final
reports had been published in 2011, while the fifth was published in 2009. The average age of
the reports was 456 days as of the date of our site visit. Livermore informed us that it had
transmitted the five final reports to OSTI 3 weeks after our site visit that identified the reports.
Livermore officials told us that they have made procedural modifications to ensure that CRADA
final report submittals to OSTI are expedited.

                                Dissemination of Scientific Results

The Department has stated that accelerating the dissemination of research and development
information serves to accelerate the pace of scientific progress itself. By not ensuring that its
laboratories obtained and disseminated final reports, the NNSA has not ensured that the scientific
and technical information generated by laboratory research was available throughout the
Department, as well as the scientific community and the public. This process serves, as well, to
document new inventions and breakthrough technologies resulting from CRADA efforts and
reduce redundant research by ensuring that historical information is widely disseminated. As we
stated in our previous report, these reports are not merely evidence of the work product. Instead,
they serve to memorialize the technical approach and accomplishments under the CRADA,
which is a vital element in the effort to transfer the technology as effectively and expeditiously as
possible.

RECOMMENDATIONS

We recommend that the Acting Administrator, NNSA, direct all site offices to:

    1. Verify that the laboratories establish policies to obtain final reports from researchers for
       all completed or terminated CRADAs and transmit them to OSTI;

    2. Periodically review whether the laboratories are receiving and promptly transmitting
       final reports to OSTI; and,

    3. Require the laboratories to determine whether final reports have been received on
       previously completed or terminated CRADAs, and ensure that any existing final reports
       are transmitted to OSTI.

MANAGEMENT REACTION AND AUDITOR COMMENTS

Management concurred with our recommendations and proposed corrective actions designed to
address our concerns. Management's response identified specific actions and timeframes for
addressing the recommendations that are responsive to the recommendations. As a result, a
Management Decision will not be required; however, the recommendations will remain open
until corrective actions are completed. Management's comments are included in Attachment 3.

Attachments

cc: Deputy Secretary
    Chief of Staff
    General Counsel


                                                 4
                                                                                    Attachment 1


                       OBJECTIVE, SCOPE AND METHODOLOGY


OBJECTIVE

The objective of this audit was to determine whether the National Nuclear Security
Administration (NNSA) is effectively managing the use of Cooperative Research and
Development Agreements (CRADAs) at its laboratories.

SCOPE

We conducted the audit from March 2012 to March 2013 at Sandia National Laboratory (Sandia)
in Albuquerque, New Mexico; Lawrence Livermore National Laboratory (Livermore) in
Livermore, California; and Los Alamos National Laboratory (Los Alamos) in Los Alamos,
New Mexico. The scope of the audit covered CRADAs in effect during Fiscal Years (FYs) 2008
through 2012.

METHODOLOGY

To accomplish our audit objective, we:

     •   Reviewed laws, regulations and Department of Energy (Department) directives and
         manuals related to CRADAs;

     •   Identified and reviewed laboratory policies and procedures;

     •   Held discussions with responsible Department and Laboratory personnel;

     •   Reviewed accounting records for adequate funding and verification of licensing income
         distribution; and,

     •   Judgmentally selected and reviewed a sample of 60 out of 411 CRADAs active during
         FYs 2008 through 2012, 20 each at Sandia, Lawrence Livermore, and Los Alamos. At
         the time of our review, 200 of the CRADAs were active and 211 were completed or
         terminated. Our sample included 40 completed or terminated CRADAs. Attributes
         considered in selecting our sample included the amount of CRADA funding, the type of
         partner, whether a small business, large corporation or educational institution, and the
         number of CRADAs the partner had with the individual laboratory. We tested
         compliance with Department requirements in the areas of competition, work
         descriptions, collaboration and accounting, as well as obtaining and disseminating
         results. Because the sample was not statistical, we could not project the sample results
         to the population.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


                                                5
                                                                       Attachment 1 (continued)


based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective. Accordingly, we assessed
significant internal controls and compliance with laws and regulations necessary to satisfy the
audit objective. In particular, we assessed the implementation of the GPRA Modernization Act of
2010 and found that NNSA had not established performance measures for CRADAs. Because
our review was limited, it would not necessarily have disclosed all internal control deficiencies
that may have existed at the time of our audit. Finally, we conducted an assessment of
computer-processed data relevant to our audit objective and found it to be reliable.

Management waived an exit conference.




                                               6
                                                                                  Attachment 2


                                   PRIOR REPORTS

•   Audit Report on Cooperative Research and Development Agreements at the Department
    of Energy's Office of Science Laboratories (DOE/IG-0826, September 2009). The audit
    found that although Office of Science generally managed Cooperative Research and
    Development Agreements (CRADAs) according to Department requirements, it did not
    always ensure that its laboratories received final reports and forwarded them to the Office
    of Scientific and Technical Information (OSTI). It was noted that site offices did not
    exercise adequate oversight of CRADA activities at the laboratories, and had not
    established goals and measures to evaluate the success of the laboratories in obtaining the
    final reports and forwarding them to OSTI. It was recommended that performance
    measures, related to obtaining final reports and forwarding those reports to OSTI, be
    established and monitored by the site office, and that the site office ensure that the
    laboratory institute policies and procedures to ensure compliance. Management agreed
    with our findings and generally concurred with our recommendations, but did not think it
    was necessary to establish performance measures because following the other
    recommendations would ensure compliance with Department requirements.

•   Audit Report on Management Controls over the Technology Transfer and
    Commercialization Program at the Idaho National Laboratory (OAS-M-05-07, June
    2005). This audit found that the contractor at Idaho National Laboratory, had not
    established proper financial controls over royalty income from its licensing activities and
    had not properly tracked costs of technology transfer to ensure the Laboratory's spending
    did not exceed contractual limits. This was despite the fact that internal auditors had
    reported these adverse conditions several years prior. Recommendations were made to
    set-up a proper accounting structure to capture royalty income, to establish internal
    controls over the write-off of uncollectable royalty receipts and to ensure that technology
    transfer expenditures did not exceed administrative limits without contracting officer
    approval.




                                             7
                      Attachment 3


MANAGEMENT COMMENTS




         8
    Attachment 3 (continued)




9
                                                                    IG Report No. OAS-M-13-02


                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1. What additional background information about the selection, scheduling, scope, or
        procedures of the audit or inspection would have been helpful to the reader in
        understanding this report?

     2. What additional information related to findings and recommendations could have been
        included in the report to assist management in implementing corrective actions?

     3. What format, stylistic, or organizational changes might have made this report's overall
        message more clear to the reader?

     4. What additional actions could the Office of Inspector General have taken on the issues
        discussed in this report that would have been helpful?

     5. Please include your name and telephone number so that we may contact you should we
        have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer
friendly and cost effective as possible. Therefore, this report will be available electronically
through the Internet at the following address:

             U.S. Department of Energy Office of Inspector General Home Page
                                      http://energy.gov/ig


Your comments would be appreciated and can be provided on the Customer Response Form.
